AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
    SOUTHWEST BORDER PROSECUTION
    INITIATIVE FUNDING RECEIVED BY
       THE STATE OF NEW MEXICO




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-60-12-020
            September 2012
               AUDIT OF OFFICE OF JUSTICE PROGRAMS
                 SOUTHWEST BORDER PROSECUTION
                 INITIATIVE FUNDING RECEIVED BY
                     THE STATE OF NEW MEXICO

                           EXECUTIVE SUMMARY


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to the State of New Mexico (New Mexico). From fiscal years (FYs) 2008,
3rd quarter through 2010, New Mexico received SWBPI funding totaling
$3,637,439 on a pro-rata basis.

       Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas
and Organized Crime Drug Enforcement Task Forces. Many U.S. Attorneys
have developed prosecution guidelines that govern the most common
violations of federal law. These prosecution guidelines are used by law
enforcement agencies to determine whether to file a case in federal, state,
or county court. As a result, many federally initiated cases occurring near
the southwest border are referred to the state or county for prosecution.

      The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. Reimbursements received from
SWBPI funding may be used by applicant jurisdictions for any purpose not
otherwise prohibited by federal law. For FY 2012, Congress appropriated
$10 million for Border Prosecution Initiatives to reimburse state, county,
parish, tribal, or municipal governments for costs associated with the
prosecution of criminal cases declined by local U.S. Attorneys’ offices.

      The objective of our audit was to determine if the SWBPI
reimbursements received by New Mexico were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI.
      We found that New Mexico claimed and was reimbursed for cases that
were ineligible under the SWBPI guidelines. Based on the deficiencies listed
below, we identified questioned costs totaling $88,551. 1 Specifically, we
found that New Mexico:

   •   Received unallowable reimbursements totaling $62,474 for 19 cases
       that were investigated or prosecuted during concurrent periods of time
       with cases involving the same defendant that were also submitted for
       reimbursement.

   •   Received excess reimbursements totaling $24,604 for the reporting
       period FY 2009 for which the average cost per case claim exceeded the
       actual average cost per case.

   •   Received unallowable reimbursements totaling $1,367 for three cases
       that were not federally initiated.

   •   Received unallowable reimbursements totaling $106 for one case that
       was submitted in the wrong reporting period.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




       1
         We reduced the total dollar-related findings detailed in Appendix II by the duplicated
questioned costs that were questioned based on other SWBPI criteria. As a result, the total
questioned costs figure excludes duplicate questioned costs that were questioned based on
other SWBPI criteria.


                                               ii
                                     TABLE OF CONTENTS

INTRODUCTION ................................................................................. 1

      Background .......................................................................... 1

FINDINGS AND RECOMMENDATIONS ................................................. 4

      Case Eligibility ...................................................................... 4
      Accuracy of Prosecution Reimbursement Calculation .................. 5
      Recommendations ................................................................ 7

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY .................. 8

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS............... 9

APPENDIX III – DETAILS OF QUESTIONED COSTS ........................... 10

APPENDIX IV – NEW MEXICO’S RESPONSE TO THE DRAFT REPORT . 12

APPENDIX V – OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO THE
    DRAFT REPORT ....................................................................... 14

APPENDIX VI – ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
    CLOSE REPORT ........................................................................ 17
               AUDIT OF OFFICE OF JUSTICE PROGRAMS
                 SOUTHWEST BORDER PROSECUTION
                 INITIATIVE FUNDING RECEIVED BY
                     THE STATE OF NEW MEXICO

                            INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to the State of New Mexico (New Mexico). The
objective of the audit was to determine whether the SWBPI reimbursements
received by New Mexico were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002 to support state and local prosecutions along the
southwest border.

      For FY 2012, Congress appropriated $10 million in funding for the
SWBPI and Northern Border Prosecution Initiative combined,
Pub. L. No. 112-55 (2011), to reimburse state, county, parish, tribal, or
municipal governments for costs associated with the prosecution of criminal
cases declined by local U.S. Attorneys’ offices. Reimbursements received
from the SWBPI funding may be used by applicant jurisdictions for any
purpose not otherwise prohibited by federal law; however, the direct support
and enhancement of jurisdictions’ prosecutorial services are encouraged.




                                      1
       For cases disposed between the third and fourth quarter of FY 2008,
jurisdictions may only receive reimbursements for the actual number of
prosecutor hours charged to the case and the number of days the defendant
was detained prior to the disposition of the case. Prosecutors’ salaries
charged to the case were based on the average hourly rate for the county’s
prosecutors and cannot include fringe benefits.

       For cases disposed after FY 2008, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff, and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases, and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The pro-rata reimbursement percentages for New Mexico are shown
in Exhibit 1.




                                     2
                              EXHIBIT 1
             PRO-RATA REIMBURSEMENT BASIS TO NEW MEXICO

                                                                           PERCENTAGE
 REPORTING PERIOD            START DATE              END DATE
                                                                           REIMBURSED
 FY08,     3rd Quarter        04/01/08               06/30/08               111.05%
 FY08,     4th Quarter        07/01/08               09/30/08               109.15%
 FY09,     All Quarters       10/01/08               09/30/09               100.00%
 FY10,     All Quarters       10/01/09               09/30/10               100.00%
Source: Office of Justice Programs



     New Mexico received reimbursements from SWBPI funds totaling
$3,637,439 from FYs 2008 through 2010, as shown in Exhibit 2.


                               EXHIBIT 2
                   REIMBURSEMENTS MADE TO NEW MEXICO 1

    REPORTING                                              AMOUNT             AMOUNT
                          START DATE     END DATE
      PERIOD                                             REQUESTED          REIMBURSED
 FY08, 3rd Quarter         04/01/08      06/30/08         $146,835             $163,059
 FY08, 4th Quarter         07/01/08      09/30/08          128,740              140,517
 FY09, All Quarters        10/01/08      09/30/09        1,870,865            1,870,865
 FY10, All Quarters        10/01/09      09/30/10        1,462,997            1,462,997
 TOTAL                                                                      $3,637,439
Source: Office of Justice Programs




       1
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.



                                              3
                  FINDINGS AND RECOMMENDATIONS


       We found that New Mexico claimed and was reimbursed for
       cases that were ineligible under the SWBPI guidelines.
       Specifically, we found cases that were: (1) reimbursed at an
       incorrect rate, (2) investigated or prosecuted concurrently,
       (3) not federally initiated, and (4) submitted in the wrong
       reporting period. As a result, we identified questioned costs
       totaling $88,551. 2


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas and Organized Crime Drug
Enforcement Task Forces. The SWBPI guidelines further state that, “referred
cases are eligible regardless of whether the case was formally declined and
referred by a U.S. Attorney, or through a blanket federal declination-referral
policy, an accepted federal law enforcement practice, or by federal
prosecutorial discretion.” Federally referred cases that are declined and not
prosecuted by the state or local government are ineligible for
reimbursement.

       We analyzed the 1,352 cases submitted for reimbursement by
New Mexico to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines. In addition, we reviewed
all cases submitted to determine if: (1) the approved prosecution award was
used to calculate the prosecution reimbursement claimed, (2) there were
duplicates or concurrently prosecuted cases, (3) cases had federal law
enforcement involvement, and (4) reimbursements were submitted in the
period the cases were disposed.


       2
         We reduced the total dollar-related findings detailed in Appendix II by the duplicated
questioned costs that were questioned based on other SWBPI criteria. As a result, the total
questioned costs figure excludes duplicate questioned costs that were questioned based on
other SWBPI criteria.


                                              4
       Based on our review, we found that New Mexico received SWBPI funds
totaling $63,947 for 23 cases that were not eligible for reimbursement
pursuant to the SWBPI guidelines. A detailed listing of the cases claimed by
New Mexico that were not eligible for reimbursement is provided in
Appendix III. Specifically, we found that New Mexico: 3

   •   Received unallowable reimbursements totaling $62,474 for 19 cases
       that were investigated or prosecuted during concurrent periods of time
       with cases involving the same defendant that were also submitted for
       reimbursement.

   •   Received unallowable reimbursements totaling $1,367 for three cases
       that were not federally initiated.

   •   Received unallowable reimbursements totaling $106 for one case that
       was submitted in the wrong period.

Accuracy of Prosecution Reimbursement Calculation

       The State of New Mexico received reimbursements from SWBPI funds
for FYs 2009 and 2010 based on average prosecution cost per case.
Pursuant to SWBPI guidelines, the total prosecution salary costs for a
jurisdiction are divided by the total number felony or misdemeanor cases
prosecuted and resolved by the jurisdiction. The average prosecution cost
per case is then multiplied by the number of SWBPI cases to equal the total
amount of prosecution costs to be reimbursed.

      We reviewed the calculations originally utilized by the State of
New Mexico to request reimbursements for prosecution costs and compared
them to supporting documentation provided to the auditors. Based on our
review, we determined that the reimbursement requests were not supported
by the actual prosecution costs resulting in excess reimbursements totaling
$24,604, as shown in Exhibit 3.




       3
         The number of unallowable cases detailed includes cases that have duplicate
questioned costs because the cases were questioned previously, based on other SWBPI
reimbursement criteria. The total amount of duplicate questioned costs has been reduced
from the total dollar-related findings detailed in Appendix II.



                                            5
                         EXHIBIT 3
    NEW MEXICO’S REPORTED AND ACTUAL PROSECUTION COSTS

                                                AVERAGE        NO .    REIMBURSEMENT
             PROSECUTION       NO. FELONY
                                                COST PER     SWBPI
                COSTS            CASES
                                                  CASE        CASES
  FY09    $62,546,597            17,184          $3,640                  $1,870,865
Reported
                                                                 514
  FY09    $61,655,858            17,165          $3,592                  $1,846,263
 Actual
FY09 Questioned Costs                                                      $24,604
Source: Office of Justice Programs and the State of New Mexico




                                            6
Recommendations

     We recommend that OJP:

1.   Remedy the $62,474 in questioned costs received by New Mexico for
     19 cases that were investigated or prosecuted during concurrent
     periods of time with cases involving the same defendant that were also
     submitted for reimbursement.

2.   Remedy the $24,413 in questioned costs received by the State of
     New Mexico due to the average cost per case claim exceeding the
     actual average cost per case.

3.   Remedy the $1,367 in questioned costs received by New Mexico for
     three cases that were not federally initiated.

4.   Remedy the $106 in questioned costs received by New Mexico for one
     case that was submitted in the wrong period.




                                    7
                                                              APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. The
scope of our audit included reimbursements received by New Mexico for
FYs 2008, 3rd quarter through 2010.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested New Mexico SWBPI activities in case eligibility and
compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for New Mexico as a whole. The
Single Audit Report for New Mexico was prepared under the provisions of
Office of Management and Budget Circular A-133 for the fiscal year ended
June 30, 2010. We reviewed the independent auditor's assessment to
identify internal control weaknesses and significant non-compliance issues
related to New Mexico or federal programs. The auditor’s assessment
disclosed no material control weaknesses or significant non-compliance
issues related to the SWBPI. In addition, we performed testing of source
documents to assess the accuracy of reimbursement requests; however, we
did not test the reliability of the financial management system as a whole.




                                     8
                                                                            APPENDIX II

                   SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                              AMOUNT             PAGE

Unallowable duplicate cases and cases that                       $62,474             5
  were prosecuted concurrently.

Excess reimbursements for cases that were
  claimed with an inflated average cost per
                                                                  24,604             5
  case.

Unallowable cases that were not federally
                                                                   1,367             5
  initiated.

Unallowable cases that were submitted in the
                                                                      106            5
  wrong period.
                                                               $88,551
Total Questioned Costs: 4
                                                                 ($191)
Less: Duplicated Questioned Costs

TOTAL DOLLAR-RELATED FINDINGS                                  $88,360




        4
            Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.



                                              9
                                                                              APPENDIX III

                         DETAILS OF QUESTIONED COSTS

                   CASES THAT WERE CONCURRENTLY PROSECUTED 5
                                         REPORTING       JUDICIAL        AMOUNT
                  DOCKET NO.
                                          PERIOD         DISTRICT      QUESTIONED
           D-307-CR-201000008              FY10            3rd            $3,194
           D-307-CR-201000057              FY10            3rd             3,194
           D-307-CR-201000446              FY10            3rd             3,194
           D-504-CR-200700276              FY09             5th            3,640
           D-504-CR-200800284              FY09             5th            3,640
           D-504-CR-200900039              FY10             5th            3,194
           D-504-CR-200900313              FY10             5th            3,194
           D-504-CR-201000132              FY10             5th            3,194
           D-1116-CR-201000054             FY10            11th            3,194
           D-1116-CR-201000205             FY10            11th            3,194
           D-1116-CR-201000185             FY10            11th            3,194
           D-1116-CR-201000539             FY10            11th            3,194
           D-1116-CR-201000501             FY10            11th            3,194
           D-1116-CR-201000570             FY10            11th            3,194
           D-1215-CR-200900445             FY10            12th            3,194
           D-1215-CR-201000122             FY10            12th            3,194
           D-1314-CR-200800099             FY09            13th            3,640
           D-1329-CR-200800051             FY09            13th            3,640
           D-1329-CR-200900152             FY10            13th            3,194
           Total                                                        $62,474




       5
          All tables in this appendix reflect questioned costs for all cases questioned, including
duplicated questioned costs. Appendix II details dollar-related findings and the adjustment
for duplicated costs.


                                               10
             CASES THAT WERE NOT FEDERALLY INITIATED
               INITIATING     REPORTING    JUDICIAL     AMOUNT
DOCKET NO.
                 AGENCY         PERIOD     DISTRICT    QUESTIONED
D0424-CR-      NEW MEXICO      FY08, 3rd     1ST            $218
2008-00159     STATE POLICE       Qtr
D-0117-CR-     NEW MEXICO      FY08, 4th     1ST            423
2008-00010     STATE POLICE       Qtr
D-1314-CR-     NEW MEXICO      FY08, 3rd    13TH            726
2007-00126     STATE POLICE       Qtr
TOTAL                                                    $1,367



       CASES REIMBURSED IN THE WRONG REPORTING PERIOD
              DISPOSITION     REPORTING    JUDICIAL     AMOUNT
DOCKET NO.
                 DATE           PERIOD     DISTRICT    QUESTIONED
D-0117-CR-    06/19/2008       FY08, 4th     1ST            $106
2008-00063                        Qtr
TOTAL                                                      $106




                                 11
                                                                                                                     APPENDIX IV

 NEW MEXICO’S RESPONSE TO THE DRAFT REPORT




                              Adminislmtive O ffice of the Disll;ct AttolllCYs
                                       Henry R. Valdez, Director


September 17, 2012

David Shecren, Regional Audit            ~'lanager
Robert Steele, Auditor
U.s, Jkpm1menl of Justice
Office of the InspeL10r General
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denve r, Colorado 80203

Office of JLl~tice l'rograms

Re: Draft Audit Response from th e SWOPI New \ .fcxico District Attorne ys

Dear Mr. Sheeren ,Uld Mr. Steele:

         'l1lank yo u for the opportunity (,md the time) to further review to this Draft of the aud it of
the New ~lcxieo District Attom eys' Southwest Border Prosecution Initiative funding. Although
thc audit was correct on SOIlIC points, it was in error on others. We would appreciate that where
errors were made, that particular District not be required to pay the money back at this time, but
rdther thaI an y future New Mexico SWBPI awards be reduced by the revised errQr amount.
AODA will, in tum, make a ll ocation~ fr(J1lI that award that reduces pa)'n lents to the proper
Di~ tricts in accord with the overpaymcnts.


        Hcre is what we found:


    I ) All of the DA districL~ listed in Appendix III on page 10 of the Draft Audit Report felt
        that the cases listed as concurrentl y prosecuted should be remo ved from the list, as th ey
        were se parate events,



        On page 10 ofthe Audit Report "Cases that were Concurrently Prosecuted" we did note
        an error on 2 cases becallse there were 2 different incidents, bllt Ollr office on the plea
        consolidated both case numbers D-1314-CR-200800099 and D-1329-CR-200800051 so
        we don 't object to rhese 2 cases,

        Rlltthe one I do obJect to is D·1329-CR-200900i52 the defendant (Kara Smith) on thiS
        case did not have other cases reported during thiS time frame. She did have a prior case

        615 Sih..". A •..", Sui/e41fJoAlb"l[Iu:rqut, N"", Jf<lXictJ 8 7/O! Phone: (SfJ.'982 7_J789 Fax: (SfJ.'924! -Jl!7

                                              412 (,''''-ill<o Santa h, N.II87501




                                                            12

        that qIlQlifiedfor SW8PI on another reporting peri(xI BIIt case II /)· 1329·CR·200900152
        was never plead or sentenced in 2 case numbers and this was a new incident.

        b. TIle 11th DA Division I (Famlington Ollice) wrOle:

              According to my original submiSSion the following submiSSions were made only
              once[therefore correctly) for the following defendanfs. Jamie Oaxaca-Araiza-­
              D·III6-CR-201000205: David Sham2.'vfaestas·· D·I J6--CR-201000!85:
              Jeovanny Cisneros-Rodriglwz- D-J6·CR-201000570. We will concede the other
              three submissions. [TIlese resulls are tabulated in an attached spreadsheet, which
should work as opcnabk Excel Spreadsheets.]

        c. 'Ille 11th DA Division 2 (Gallup Ollice) wrote:

               (Referring to Exhibit 3 on Page 6 of the Draft Audit Report): After carefiilly going
               thrOllgh the recent slIbmi.uion of the 1.193 case.~. ! come (";C/"{)ss cases tOOl were
               closed after the original submission of 1.176. Jfound a dtference of 16 cases that
               "'ere dosed in 2010 aOer the original nwnbcrs were mn. This changes Ollr felony
               case counlto 1,1 77. leaving a difference of 1 case from orU" original submission. J
               hope thi.f clears thing.f lip and this submi.uian will be accepted. ISpr.::adshe.::t
               attached).


    2. As for the dcnial of"concum:nl" .::ases pcr Page In, wherc a District listed the samc
       dcrend:mt twice within th e r.::por1ing p.::riod (eve n though a separate case), w.:: have
       checked this thoroughl y and agree th e audit finding is eorred, that this error was made.
       TIlerefore, we wi11 not oppose the deduction from our ne!\.1 award for in the amount of
       $2, 178, and will break th at down pro-rata between the Districts.


        In elosing, we hope this further round of infomlation can lay these audit eoncem s to rest.
We acknowledge we did make some errors and will endeavor not to repeat them in the future.
Agai n, any consideration you can give for our proposed solution for remedying Ihis situat ion will
be gratefull y appreciated.

Sincer.::ly,

Mary Lynne Newell
Sixth Judicial District Attomey & SWIlI'I Liai$o n

Michael J. Hall
AODA SWIlPI Liaison




        61S Sih'er .'1,"<,., S"Ue41fJoA/br'Ifl.aqut, New Mcric(J 8 7102 Phone: (50J)827.J789 Fax: (50.'924::-Jl]7

                                           .1]2 Galill<o Sanla   f~,   "'M 87501




                                                          13

                                                                                              APPENDIX V

OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO THE DRAFT REPORT

                                                       U.S. Department of Justice

                                                       Office ofJustice Programs

                                                      Office ofAudit. Assessment. and Management



                                                      w.w.ingJoo, D .C 2Q5JJ



        SEP 14 2012


      MEMORANDUM TO:               David M. Sheeren
                                   Regional Audit Manager
                                   Denver Regional Audit Office
                                   Office of the Inspector General

      FROM:                        Maureen A.-l:l!:~eber~ ~ .,
                                   Director    r ~O

      SUBJECT:                     Response to the Dmft Audit Report, Audit ofOffice ofJustice
                                   Programs Southwest Border Prosecution Initiative Funding.
                                   Received by the State of NfW Mexico

      The Office of Justice Programs (OlP) appreciates the opportunity to review and comment on the
      Office of the Inspector Oeneral's (0I0's) draft report, entitled " Audit of Office o f Justice
      Programs Southwest Border Prosceutionlnitiative Funding, Received by the State of New
      Mexico," dated August ! 5, 2012. We consider the subject report resolved and request written
      acceptance of this action from your office.

      As a result of the 0I0's audit of the Southwest Border Prosecution lnitiative (SWBPI) Program
      in fiscal years (FYs) 2008 and 2010, and the Officc of Audit, Assessment, and Management's
      (OAAM) review of this program in FY 2011, the Bureau of Justice Assistance (BJA) made the
      following enhancements: 1) modified the SWBPI application system to require that each
      prosecution case submitted by ajurisdiction for reimbursement contain the caseldocket number,
      defendant's first and last name, referring Fedeml agency, referred date, resolution type, and
      resolved date; 2) established new intemal guidelines to ensure tnat SWBPI reimbursements are
      analyzed to identify anomalies that may indicate unaHov.able or unsupported payments to
      specific jurisdictions; and 3) implemented a process to identify overlapping requests for
      detention expenses between SWBPI and the State Criminal Alien Assistance Program.




                                                   14

BJA 's enhanced monitoring process over SWBP! payments has resulted in increased scrutiny,
and now includes a review of a minimum of 10% of the annual payments made under the
program. With regard to the subject audit, the majority of costs questioned under the State of
New Mexico's (New Mexico) SWBP! awards were not part of the sample reviewed by B1A.
Add itionally, some of the ineligible SWBP! cases, identified by the OIG during this audit, were
for cases submitted by New Mexico prior to changes that BlA implemented for the SWBPI
program, beginning in October 2008.

The report contains f(lUf recommendations and S88,3601 in questioned costs. The following is
OlP's analysis of the draft audit report recommendations. For case of review, the
fe(;ommendations are restated in bold and are followed by our response.

1.      We recommend thflt OJ!' remedy the $62,474 in questioned costs received by New
        Mexico for 19 cases that were investignted or prosecuted during concurrent periods
        of time with cases involving the sa me defendant that were also submitted for
        reimbursement.

        We agree with the recommendation. We will coordinate with New Mexico 10 reme<ly the
        $62,474 in questioned costs related to the 19 cascs thaI were investigated or prosecuted
        during concurrent periods of time with cases involving the same defendant that were also
        submitted for reimbursement.

2.      We recommend that OJI' remedy the $24,413 in questioned costs r«tived by New
        Mexico due to the average costs per case claim exceeding the actual average cost per
        case.

        We agree with the recommendation. We will coordinate with New Mexico to remedy the
        $24,413 in questioned cosll; related to reimbursements received by New Mexico due to
        the average costs per case claim exceeding the actual average cost per case.

3.       We recommend that OJP remedy the $1,367 in questioned costs received by New
         Mexico for three cases that were not Federally initiated.

        We agree with the recommendation. We will coordinate with New Mexico to remedy the
        $1,367 in questioned costs receivcd by New Mexico for three cases thaI were nOI
        Federally initiated.




I Total queSiiOlled WSts figure excludes $191 in dUplicale questioned costs that were questioned based on other
SWBPI criteria.

                                                         2




                                                        15

4.     We recommend that OJP remedy the SlG6 in qu estioned eosts received by New
       Mexico for one ea~e that was submitted ill the wrong period.

       We agree with the recommendation. We will coordinate with New Mexico to remedy the
       $ 106 in questioned co~ts received for one case that WIDJ submitted in the wrong period.
       However, if al! of the other ease requirements were met, OJP will not require the funds to
       be returned.

If you have any questions or require additional infonnation, please contact Jeffery A. Haley,
Deputy Director, Audit and Revicw Division, on (202) 616-2936.

ce:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Tracey Trautman
       Acting Deputy Director for Progrnms
       Bureau of Justice Assistance

       Amanda loCicero
       Budget Analyst
       Bureau of JU$l:ice Assistancc

       Joseph Husted
       Policy Advisor
       Bureau of Justice Assistance

       Maria Anderliol!
       State POlicy Advisor
       Bureau of JlL~ti ce Assistance

       Luui~e Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Divisiun

       OJP Executive Secretariat
       Control Number 20121379




                                                3




                                                16

                                                                       APPENDIX VI

                      OFFICE OF THE INSPECTOR GENERAL
                     ANALYSIS AND SUMMARY OF ACTIONS
                        NECESSARY TO CLOSE REPORT

      The OIG provided a draft of this audit report to OJP and the State of
New Mexico. OJP’s response, which is included in Appendix V of this report,
states that OJP agrees with our recommendations and that it will coordinate
with the State of New Mexico to remedy questioned costs and funds to
better use. OJP also states that “BJA’s enhanced monitoring process over
SWBPI payments has resulted in increased scrutiny, and now includes a
review of a minimum of 10 percent of the annual payments made under the
program. With regard to the subject audit, the majority of costs questioned
under the State of New Mexico’s (New Mexico) SWBPI awards were not part
of the sample reviewed by BJA. Additionally, some of the ineligible SWBPI
cases, identified by the OIG during this audit, were for cases submitted by
New Mexico prior to changes that BJA implemented for the SWBPI program,
beginning in October 2008.” We recognize the changes that OJP made to
the SWBPI program based on recommendations provided in prior OIG
reports. 6 However, questioned costs related to the ineligible cases
submitted must still be remedied. The following provides the OIG analysis of
the response and summary of actions necessary to close the report.

Recommendation Number

   1.       Resolved. OJP concurred with our recommendation to remedy the
            $62,474 in unallowable questioned costs received by the State of
            New Mexico for 19 cases that were investigated or prosecuted during
            concurrent periods of time with cases involving the same defendant
            that were also submitted for reimbursement. OJP stated in its
            response that it will coordinate with the State of New Mexico to
            remedy the $62,474 in questioned costs related to the 19 cases that
            were concurrently prosecuted.

            New Mexico states in its response (pages 12-13 of this report):
            “[T]he defendant (Kara Smith) [with case number D-1329-CR-
            200900152] on this case did not have other cases reported during


        6
           U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursement Program, Audit Report 08-22 (March 2008); and U.S.
Department of Justice Office of the Inspector General, Southwest Border Prosecution
Initiative Reimbursements, Audit Report 10-20 (March 2010).



                                          17
           this time frame. She did have a prior case that qualified for SWBPI
           on another reporting period. But case # D-1329-CR-200900152 was
           never plead or sentenced in 2 case numbers and this was a new
           incident.” New Mexico’s statement that the defendant Kara Smith
           did not have other cases reported during this time frame is
           inaccurate. New Mexico submitted two cases for SWBPI
           reimbursement in FY 2010 with Kara Smith listed as the defendant.
           For both cases (D-1329-CR-200900152 and D-1329-CR-200900355),
           New Mexico reported to OJP that the defendant Kara Smith plead
           guilty on December 3, 2009. The SWBPI guidelines state that “[o]ne
           defendant charged in multiple cases should be claimed as only one
           case to the extent that defendant’s cases are being investigated
           and/or prosecuted during concurrent periods of time.” As a result,
           New Mexico should not have submitted a reimbursement claim for
           both cases.

           New Mexico states in its response (page 13 of this report):
           “According to my original submission the following submissions were
           made only once [therefore correctly] for the following defendants:
           Jamie Oaxaca-Araiza – D-1116-CR-201000205; David Shane Maestas
           – D-116-CR-201000185 [sic]; Jeovanny Cisneros-Rodriquez – D-16-
           CR-201000570.” New Mexico’s statement that the defendants in
           these three cases were submitted for SWBPI reimbursement only
           once is inaccurate. New Mexico submitted case number D-1116-CR-
           201000205 for SWBPI reimbursement with the defendant’s name
           reported as Jaime Oaxaca-Aragon. 7 This same defendant was also
           submitted for SWBPI reimbursement in the same reporting period
           with case number 16-CR-2010-0279. Both cases had the same
           referral date of January 27, 2010. New Mexico also reported that in
           both cases the defendant plead guilty on June 14, 2010. As a result,
           New Mexico should not have submitted a reimbursement claim for
           both cases.

           For the remaining two cases, both case numbers involved multiple
           defendants. The defendants which New Mexico named in their
           response are not the cases which are being questioned. Case
           number D-1116-CR-201000185 involved two defendants, David
           Shane Maestas and Manuel Lujan. The OIG questioned the case
           involving defendant Manual Lujan. During the same reporting period
           case number D-1116-CR-201000539, which also listed Manuel Lujan
           as the defendant, was submitted to OJP for SWBPI reimbursement.

       7
          Given the similarities of the names and the same case number, it appears that the
difference in the last name is a typographical error.


                                             18
     Both cases had the same referral date of January 27, 2010.
     New Mexico also reported that in both cases the defendant plead
     guilty on June 22, 2010. Case number D-1116-CR-201000570
     involved two defendants, Jeovanny Cisneros-Rodriguez and Matthew
     Cole. The OIG questioned the case involving defendant Matthew
     Cole. During the same reporting period case number D-1116-CR-
     201000576, which also listed Matthew Cole as the defendant, was
     submitted to OJP for SWBPI reimbursement. New Mexico reported
     that both cases shared the same resolution date of September 27,
     2010, when the case was dismissed. As a result, New Mexico should
     not have submitted a reimbursement claim for both cases.

     This recommendation can be closed when we receive documentation
     that OJP remedied the $62,474 in unallowable questioned costs
     received by the State of New Mexico for 19 cases that were
     concurrently prosecuted.

2.   Resolved. OJP concurred with our recommendation to remedy the
     $24,413 in unallowable questioned costs received by the State of
     New Mexico due to the average cost per case claim exceeding the
     actual average cost per case. OJP stated in its response that it will
     coordinate with the State of New Mexico to remedy the $24,413 in
     questioned costs due to the average cost per case claim exceeding
     the actual average cost per case.

     New Mexico’s response (page 13 of this report) states: “After
     carefully going through the recent submission of the 1,193 cases, I
     came across cases that were closed after the original submission of
     1,176. I found a difference of 16 cases that were closed in 2010
     after the original numbers were run. This changes our felony case
     count to 1,177, leaving a difference of 1 case from our original
     submission.” New Mexico’s response provided additional
     documentation subsequent to our audit to support that the 11th
     District, 2nd Division, only prosecuted and resolved 1,177 cases
     during FY 2010. This supporting documentation was sufficient to
     remedy questioned costs totaling $22,426. Therefore, the remaining
     questioned costs for remedy in association with this recommendation
     are $1,987 ($24,413 - $22,426).

     This recommendation can be closed when we receive documentation
     that OJP remedied the $1,987 in unallowable questioned costs
     received by the State of New Mexico due to the average cost per
     case claim exceeding the actual average cost per case.



                                   19
3.   Resolved. OJP concurred with our recommendation to remedy the
     $1,367 in unallowable questioned costs received by the State of
     New Mexico for three cases that were not federally initiated. OJP
     stated in its response that it will coordinate with the State of
     New Mexico to remedy the $1,367 in questioned costs related to the
     three cases that were not federally initiated.

     This recommendation can be closed when we receive documentation
     that OJP remedied the $1,367 in unallowable questioned costs
     received by the State of New Mexico for three cases that were not
     federally initiated.

4.   Resolved. OJP concurred with our recommendation to remedy the
     $106 in unallowable questioned costs received by the State of
     New Mexico for one case that was submitted in the incorrect
     reporting period. OJP stated in its response that it will coordinate
     with the State of New Mexico to remedy the $106 in questioned costs
     related to the one case that was submitted in the incorrect reporting
     period.

     This recommendation can be closed when we receive documentation
     that OJP remedied the $106 in unallowable questioned costs received
     by the State of New Mexico for the one case that was submitted in
     the incorrect reporting period.




                                  20
